No. 19-840
THE STATE OF CALIFORNIA, ET AL.,
Petitioners,
v.
THE STATE OF TEXAS, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), | certify that the Brief of Amicus
Curiae American Thoracic Society in Support of Petitioners in the above entitled case
contains 4,126 words, excluding the part of the Brief that are exempted by Supreme

Court Rule 33.1(d).
| declare under penalty of perjury that the foregoing is true and correct.

Executed on May //_, 2020

 

Institute for Public Representation
Georgetown University Law Center
600 New Jersey Ave. NW
Washington, DC 20001

(202) 662-9535
